                             OFFICE OF THE INSPECTOR GENERAL
                             CORPORATION FOR NATIONAL AND
                                   COMMUNITY SERVICE




                              PRE-AUDIT SURVEY OF THE
                       MINNESOTA COMMISSION ON NATIONAL AND
                                COMMUNITY SERVICE

                                   OIG Audit Report Number 00-3 1
                                         January 1 1,2000




                                               Prepared by:

                                            KPMG LLP
                                         2001 M Street N.W.
                                        Washington, DC 20036

                                Under CNS OIG MOU # 98-046-5003
                                   With the Department of Labor
                                   DOL Contract # J-9-G-8-0022
                                        Task # B9G9V 1 04




This report was issued to Corporation management on June 9, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than December 6,2000, and complete its corrective actions by June 9,200 1.
Consequently, the reported findings do not necessarily represent the final resolution of the issues presented.
                                  Office of Inspector General                                 CORPORATION
                        Corporation for National and Community Service                        FOR NATIONAL

                                 Pre-Audit Survey of the
                  Minnesota Commission on National and Community Service
                              OIG Audit Report Number 00-31



Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration,
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting), and
the use of training and technical assistance funds. For each survey, we will issue a report to the state
commission and to the Corporation communicating the results and making recommendations for
improvement, as appropriate.

We engaged KPMG LLP toperform thepre-audit survey of the Minnesota Commission on National and
Community Service. KPMG's report, whichfollows, concludes that the Commission administers an
open, competitiveprocess to select national service subgrantees, but noted areasfor improvement. The
report concludes that the Commission has developed control policies and procedures to administer
Corporation grant finds, and annually evaluated and monitored its subgrantees, but notes that
improvements in each area can be made. The report notes that the Commission does has adequate
controls in place for the use of training and technical assistance finds. The report includes
recommendationsfor improvements by the Commission and oversight by the Corporationfor National
Service. Finally, the report recommends a limited scope audit of the Commissionfor program years
1995-96 through 1998-99.



                                                                                          inspector General
                                                                                          1201 New York Avenue, N W
                                                                                          Washington, DC 205%
We have reviewed the report and work papers supporting its conclusions, and we agree with the findings
and recommendationspresented. A response to the report by the Minnesota Commission is included as
Appendix C. In its response, the Commission generally agreed with the majority of the report's findings
and recommendations, and indicated that it was implementing corrective actions. The Corporation's
response is included as Appendix D.
                                     Pre-Audit Survey of the
                      Minnesota Commission on National and Community Service
                                        Table of Contents



RESULTS IN BRIEF.......................................................................................................................1

BACKGROUND .............................................................................................................................     2

OVERVIEW OF THE MINNESOTA COMMISSION .................................................................. 3

OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................................                                 3

FINDINGS AND RECOMMENDATIONS....................................................................................5

APPENDIX A, COMMISSION FUNDING: 1996-97 THROUGH 1998-99 ............................. A.l

APPENDIX B, DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................            B. 1

APPENDIX C, MINNESOTA COMMISSION ON NATIONAL AND COMMUNITY
   SERVICE RESPONSE .........................................................................................................              C. 1

APPENDIX D, CORPORATION RESPONSE ........... ......... ........... . . ................... . . . . . . . .                                 D. 1
            2001 M Street, N.W.
            Washington. D.C. 20036




January 1 I, 2000


Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the Minnesota Commission on National
and Community Service. The primary purpose of this survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, the Commission did not have written policies and procedures for the
    selection process for program years prior to 1999-2000. In addition, we identified areas for
    improvement related to the lack of assessment of applicants' financial systems during the
    selection process and the absence of written policies and procedures to ensure consistent
    communication of renewal applicants' prior evaluations to selection officials during the
    selection process.

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However, the Commission does not have written policies and
    procedures related to verifying that subgrantees have met matching requirements.

    The Commission has annually evaluated and monitored its subgrantees. However, the
    Commission did not have written procedures to ensure timely evaluation and monitoring of
    its subgrantees for program years prior to 1999-2000. In addition, the Commission does not




1111          KPMG LLP KPMG LLF: a U S lkmiled Ilablllty partnership, I S
              a member of KPMG Internatonal,a SWISSassocia18on
   require documentation of the AmeriCorps Member files and expense items examined during
   site visits.

   The Commission has adequate controls in place to provide reasonable assurance that training
   and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

The Commission's AmeriCorps grants have never been tested as part of an Office of
Management and Budget (OMB) Circular A-133 audit. Therefore, based on our preliminary
assessment, we recommend the performance of a limited scope audit at the Commission for
program years 1995-96 through 1998-99.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission. Because several findings relate to the lack of written policies and procedures in
program years prior to 1999-2000, we recommend that the Corporation monitor the Commission
to ensure that these policies and procedures have been adequately implemented.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps StatehVational
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.
The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Minnesota Commission

The Minnesota Commission on National and Community Service, located in Roseville,
Minnesota has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1994-95. It operates as part of the State of Minnesota's
Department of Children, Families and Learning. Currently, the Commission has five full-time
staff consisting of an Executive Director, two Program Officers, a Communications Director, an
Administrative Assistant, and one part-time Administrative Assistant.

As part of an agency of the State of Minnesota, the Commission is annually subject to an OMB
Circular A-133 audit performed by the Minnesota Office of the Legislative Auditor. However,
the Commission's AmeriCorps grants have never been tested as major programs under OMB
Circular A-133.

The Commission provided us with the following information for the last three program years:

                                                                         Number of Sub-
                                                                        grantees Subject to
                              Total Corporation        Number of           A-133 Audit
        Program Year              Funding              Subgrantees        Requirements*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for the program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation during
program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and Community
Service, to provide an assessment of the systems and procedures in place at the Commission for
administering its AmeriCorps grants and for monitoring the fiscal activity of subgrantees. The primary
purpose of this pre-audit survey was to provide a preliminary assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
    Manual for Commission Executive Directors and Members. and other information to
    gain an understanding of legal, statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99; and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on January 19,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively.
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding."

Because of Commission staff turnover and the lack of written procedures related to selecting
subgrantees in prior years (discussed below), we primarily focused our procedures on the
subgrantee selection process in place at the time of our field work (i.e., program year 1999-2000)
to preliminarily assess the adequacy of this process. The Commission administers an open,
competitive process to select national service subgrantees. Funding availability is typically
advertised through various media, such as newsletters. However, as permitted by the
Corporation's application guidelines, the Commission limited competition to existing
subgrantees in program year 1998-99. Selection officials receive a conflict of interest
information sheet and an instruction package and use a standard form to evaluate each applicant.
In prior program years, the Commission required selection officials to sign conflict of interest
statements only if a conflict existed; beginning with the program year 2000-01 selection process,
all selection officials are required to sign conflict of interest statements. In addition, the
Commission notifies applicants of funding decisions and indicates the reasons for those
decisions.

We identified the following areas for improvement within the selection process.

        Lack of Assessment of Applicants' Financial Systems during the Selection Process

Selection officials do not consider the adequacy of the applicants' financial systems during the
Commission's subgrantee selection process. The application form provided by the Corporation
does not specifically address the applicant's financial systems. Commission selection procedures
do not require Commission personnel to request from the applicants additional information
related to their financial systems. As a result, grant funds may be provided to an organization
that does not have financial systems in place to properly account for those funds or is unable to
ensure compliance with related grant requirements.

According to A Reference Manual for Commission Executive Directors and Members, section
4.2, Commissions are responsible for maintaining "appropriate financial management systems to
disburse funds and track Commission and program expenditures according to legal and grant
requirements." In order to meet this responsibility, the Commission must be able to assure itself
that subgrantees have systems in place to accurately track expenditures, since this information
forms the basis of a majority of Commission expenditure reporting.

        Lack of Written Policies and Procedures Related to Selecting Subgrantees prior to
        Program Year 1999-2000

For program years prior to 1999-2000, the Commission did not have written policies and
procedures related to selecting subgrantees. However, the Commission documented such
procedures for the program year 1999-2000 selection process. As a result, no recommendation is
required at this time.

        Lack of Written Policies and Procedures to Ensure Consistent Communication of
        Renewal Applicants' Prior Evaluations to Selection Oficials

The Commission does not have written policies and procedures to ensure consistent
communication of renewal applicants' prior evaluations to selection officials during the selection
process. Verified progress results of subgrantees have not been made available during the
renewal and pre-selection process. As a result, past accomplishments or failures of subgrantees
may not be considered in the selection process.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
subgrantee selection process as follows:

    Require applicants to provide information related to their financial systems, and review this
    information during the subgrantee selection process. The review should focus on assessing
    whether the financial systems, as described, would provide reasonable assurance that
    applicants will be able to properly account for grant funds and comply with related grant
    requirements.

    Develop and implement formal policies and procedures to ensure consistent communication
    of renewal applicants' prior evaluations to selection officials.

Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Manual for Commission Executive Directors
and Members, section 4.3).

The Commission's personnel have adequate skills and experience to manage and administer
Corporation grant funds. The Commission currently operates as part of the Minnesota
Department of Children, Families and Learning and uses Minnesota State policies and
procedures regarding financial management to administer the Corporation's grant funds. Funds
are disbursed to subgrantees on a reimbursement basis after Commission personnel review
quarterly expenditure reports. The Commission follows up on missing expenditure reports and
discrepancies noted in its expenditure report review.

We identified the following area for improvement related to the evaluation of subgrantee
compliance with reporting and grant requirements.
        Lack of Written Policies and Procedures for the Review of Matching Requirements

Commission procedures require that subgrantees submit a quarterly reportlreimbursement
request, which is to include documentation supporting the subgrantees' matching funds.
Commission personnel then review this information to ensure subgrantees are meeting their
matching requirements. Although policies and procedures for processing payment requests were
documented in December 1999 (program year 1999-2000), they did not specifically include
procedures for the review of matching requirements and subsequent follow-up with the
subgrantee if noncompliance is identified.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    Incorporate into its current written policies and procedures over processing payment requests
    the review of matching requirements and subsequent follow-up with the subgrantee if
    noncompliance is identified. Such procedures should specifically state that disbursements to
    subgrantees are not to be approved until matching noncompliance is resolved and such
    resolution is documented.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Commission annually evaluates and monitors its subgrantees
using a monitoring checklist. Such monitoring includes reviewing Member files, program and
financial reports, and program effectiveness. Commission personnel notify the subgrantees of
the results of these site visits, including strengths, weaknesses, concerns, and recommendations.
However, we identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

        No Documentation of Subgrantees' AmeriCorps Member Files and Expense Items
        Examined during Site Visits

Although Commission personnel review the subgrantees' AmeriCorps Member files and expense
documentation for proper support and approval during site visits, they do not document on the
monitoring checklist which Member files and expense items were reviewed. In addition, the
rationale behind the sample sizes is not documented. As a result, a reviewer (e.g., supervisor) of
the site visit documentation is not able to ( I ) assess if the sample size selected was adequate and
(2) review the same documentation if a question arose about the results of the test.

        Lack of Written Policies and Procedures Related to Evaluating and Monitoring
        Subgrantees prior to December 1999

For program years prior to 1999-2000, the Commission did not have written policies and
procedures related to evaluating and monitoring its subgrantees. However, the Commission
developed and implemented such procedures in December 1999 (program year 1999-2000). As a
result, no recommendation is required at this time.

In addition, the Commission lacked a comprehensive schedule of planned and actual site visit
dates and did not identify areas of focus for these visits for program years prior to 1999-2000.
However, the Commission did establish a monitoring schedule at the beginning of program year
1999-2000.

        Inadequate Policies and Procedures Related to Follow-up on Deficiencies Noted at
        Subgrantees

The Commission does not have written policies and procedures to ensure that subgrantees correct
deficiencies identified by the Commission. Although the Commission does specify in the
memorandum issued to the subgrantee what deficiencies must be corrected, the Commission does
not indicate when a response is due to the Commission and does not adequately monitor
corrective action taken. As a result, subgrantee deficiencies identified may not be properly or
timely corrected.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Revise its current monitoring checklist to require documentation of (a) the subgrantees'
    Member files and expense items reviewed during site visits and (b) the rationale behind the
    sample size selection. The Commission's monitoring checklist should be expanded to
    include space for such documentation.

    Maintain a clear, concise schedule of site visits to be performed during the grant period,
    areas of focus for each visit, and a record of when site visits are performed. The Executive
    Director of the Commission should monitor the Commission's progress towards completing
    the scheduled site visits.

    Develop and implement formal policies and procedures to ensure specific, timely follow up
    is made and adequate corrective actions are taken when deficiencies are noted by the
    Commission during site visits.

Providing Technical Assistance

The Commission has adequate controls in place to provide reasonable assurance that training and
technical assistance is made available and provided to subgrantees. Procedures are in place at
the Commission to (1) identify training and technical assistance needs of subgrantees through
discussions with program directors, focus group evaluations, and training and technical
assistance surveys; (2) notify subgrantees of training programs; and (3) provide needed training
to subgrantees. We identified no significant areas for improvement within this process.
This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Minnesota Commission on National and Community Service, and the United States Congress and
is not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. We were unable to agree the funding amounts to the Commission's
FSRs for (a) 1998-99 because the final FSR for the program year had not been completed at the
time of field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year. basis.


         Funding Source and Type

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Learn and Serve Grant Funds

         CNS Promise Fellows Funds

         CNS Educational Only Awards

         CNS PDAT Funds

         CNS Administrative Funds

         State Matching Funds

           Total Funding
                               Commission Funding                                           Appendix A




                         Corporation for National Service
                                  Funding to the
                            Minnesota Commission on
                         National and Community Service
                                    1996-1997
I                                                                                       I
            I                 I         - I           I                         I
                         Competitive     Learn and         PDAT             All Other
                                           Serve           Funds             Funds
                                           Funds
    $1,135,935            $1,558,859      $185,000        $123,560          $274,653
                                              I               I                  I




          Total Corporation Funds Available to the Commission
                              $3,278,007

                                              +
                          Funds Awarded to Subgrantees
                                  $2,879,794




           Formula                      Competitive               /   Learn and Serve
          Subgrantees
          $1,135,935
        # of subgrantees
                                        Subgrantees
                                         $1,558,859
                                       # of subgrantees
                                                                  I     Subgrantees
                                                                         $185,000

                5                             4
           # of sites                     # of sites              I      # of sites
           9 0 (est.)*                    160 (est.)*




    *   The exact number of sites was not readily available at the Commission.


                                                  A.2
                            Commission Funding                                        Appendix A




                       Corporation for National Service
                                Funding to the
                         Minnesota Commission on
                       National and Community Service
                                  1997-1998
I

           I                I               I               I              I
      Formula          Competitive      Learn and        PDAT          All Other
       Funds             Funds            Serve          Funds          Funds
                                         Funds
     $1,125,527         $2,244,739         $0           $124,778       $241,417




I
          I                v                v              v              v

         Total Corporation Funds Available to the Commission
                             $3,736,461




                        Funds Awarded to Subgrantees
                                $3,385,466



        ~orrnula
                                                                          *
                                                                     Educational
      Subgrantees                      Subgrantees                   Award Only
       $ 1,125,527                      $2,244,739                   Subgrantees
    # of subgrantees                 # of subgrantees                  $15,200
            6                                                      # of subgrantees
        # of sites                      # of sites                         1
       100 (est.)*                      165 (est.)*                    # of sites
                                                                           1




* The exact number of sites was not readily available at the Commission.

                                             A.3
                                Commission Funding                                      Appendix A




                        Corporation for National Service
                                 Funding to the
                           Minnesota Commission on
                        National and Community Service
                                   1998-1999
I

              I                I                 I                 I           I
         Formula           Competitive   Learn and            PDAT         All Other
          Funds              Funds         Serve              Funds         Funds
                                          Funds
        $1,156,754         $2,0205 14       $0               $95,630        $222,363




I
             v                 t             v                     v           v

           Total Corporation Funds Available to the Commission
                               $3,495,26 1


                                                 .
                           Funds Awarded to Subgrantees
                                   $3,3OO,8 18


              I                                                v
            Formula             Competitive              Educational      Promise Fellows
          Subgrantees           Subgrantees              Award Only         Subgrantees
          $ 1,156,754            $2,020,5 14             Subgrantees          $115,000
        # of subgrantees      # of subgrantees              $8,550        # of subgrantees
                  6                   5                # of subgrantees           1
           # of sites             # of sites                                  # of sites
           100 (est.)             165 (est.)               # of sites             1




    *   The exact number of sites was not readily available at the Commission.


                                                     A.4
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; procurement,
suspension and debarment; subrecipient monitoring; and reporting by the Commission to the
Corporation. We then interviewed key Commission personnel to assess the Commission's
controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if confliet of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-133 audit reports, where applicable;


    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                          Detailed Engagement Objectives
                                     and Methodology                              Appendix B


In order to achieve the above objectives. we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
Learn & Serve Arner~ca Youth Works*.i\rner~Corps .4merrCorps*VISTA Natlonal D~rects Challenge Awards Natlnnal Senlor Sen ice C o ~ s




             May 30,2000



             Luise S. Jordan
             Office of Inspector General
             Corporation for National Service
             1201 New York Avenue, N.W.
             Washington, DC 20525

             This is in response to the draft report on the pre-audit survey of the Minnesota
             Commission on National & Community Service prepared by KPMG LLP.

             Attached please find our formal response to each recommendation detailed in the draft
             report. Please contact me if you have more questions or require further information.

             Sincerely,



             Audrey Suker
             Executive Director
             Minnesota Commission on National & Community Service
             Dept. of Children, Families & Learning
             1500 Highway 36 West
             Roseville. Minnesota 55 113-4266


             Attachment
             /as




        Department of Children, Families & Learning, 1500 Highway 36 West, Roseville, Minnesota 55 113-4266
                         Phone (651) 582-8444 FAX (651) 582-8492 Tn (651) 582-8201
                                                                           Appendix C

 MINNESOTA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                        RESPONSE

Recommendation

   Performance of a limited scope audit at the Commission for program years 1995-96
   through 1998-99

Response

   The Mmnesota Commission does not believe that the findings and recommendations
   of the pre-audit survey warrant this recommendation. While we are in agreement
   with the development of Program Specific Policies & Procedures, the Commission is
   part of a several billion dollar State Agency with well-established fiscal policies and
   procedures governing grants and projects. Policies and Procedures governing our
   actions can be accessed on line: htt~://www.finance.state.mn.us
   Additionally, we have forwarded a copy of our pre-audit survey to our State
   Legislative Auditor and have asked for their opinion regarding this recommendation.

Recommendation

   Require applicants to provide information related to their financial systems, and
   review this information during the subgrantee selection process. The review should
   focus on assessing whether the financial systems as described, would provide
   reasonable assurance that applicants will be able to properly account for grant funds
   and comply with related grant requirements.

Response

   The Minnesota Commission accepts this recommendation as part of its continuous
   improvement strategy and has implemented this recommendation as part of the
   selection process for the 2000-2001 grantees. Applicants were required to submit
   information about their fiscal systems and this was rated during the selection process.
   Existing programs received fiscal monitoring visits and the results of these visits were
   reviewed during the selection process and will be incorporated into the final award
   process. Additionally, the Minnesota Commission has requested technical assistance
   from Coleman and Williams, LTD. Representatives from Coleman and Williams will
   spend a full day with Commission Staff on May 31,2000 to review results from our
   fiscal visits to ensure that our actions are consistent with what the information
   gathered warrants.

Recommendation

    Develop and implement formal policies and procedures to ensure consistent
    communication of renewal applicants' prior evaluations to selection officials.



Page 1 of 3                                C.2
                                                                            Appendix C

Response

   The Minnesota Commission accepts this recommendation as part of its continuous
   improvement strategy and has incorporated a rating of renewal applicants' progress
   and performance as part of the selection criteria. This rating was communicated with
   the Board Committee charged with malung recommendations to the full Board.

   Performance documentation and program evaluation results are now filed in the
   central files for each grantee.

Recommendation

   Incorporate into its current written policies and procedures over processing payment
   requests the review of matching requirements and subsequent follow-up with the
   subgrantee if noncompliance is identified. Such procedures should specifically state
   that disbursements to subgrantees are not to be approved until matching
   noncompliance is resolved and such resolution is documented.


Response

   The Minnesota Commission accepts this recommendation as part of its continuous
   improvement strategy and has incorporated a review of compliance with matching
   requirements as part of the process before any payments are processed. The
   procedures that are currently being used will be documented in a written policy by
   September 1,2000.


Recommendation

   Revise its current monitoring checklist to require documentation of (a) the
   subgrantees' Member files and expense items reviewed during site visits and (b) the
   rationale behind the sample size selection. The Commission's monitoring checklist
   should be expanded to include space for such documentation.

Response

   The Minnesota Commission accepts this recommendation as part of our continuous
   improvement strategy and our monitoring checklist has been expanded to include
   space for such documentation.


Recommendation

    Maintain a clear, concise schedule of site visits to be performed during the grant
    period, areas of focus for each visit, and a record of when site visits are performed.


Page 2 of 3                                 C.3                                      05/30/00
                                                                         Appendix C

   The Executive Director of the Commission should monitor the Commission's
   progress towards completing the scheduled site visits.

Response

   The Minnesota Commission accepts this recommendation as part of our continuous
   improvement strategy and site visits are being completed for the 1999-2000 program
   year that our consistent with our current policy and procedures. This policy and
   procedures will be documented in a formal policy and procedure manual by
   September 1, 2000.


Recommendation

   Develop and implement formal policies and procedures to ensure specific, timely
   follow up is made and adequate corrective actions are taken when deficiencies are
   noted by the Commission during site visits.

Response

   The Wnnesota Commission accepts this recommendation as part of our continuous
   improvement strategy and has implemented a procedure requiring timely follow up to
   deficiencies noted in monitoring visits and is incorporating resolution of deficiencies
   as part of the award process for the 2000-2001 program year.
   Formal policies and procedures documenting this practice will be completed by
   September 1,2000




Page 3 of 3
                                                        CORPORATION

                                                        FOR NATIONAL
      MEMORANDUM                                                                             Appendix D


      TO:                 Luise S. Jordan

      THRU:               Anthony

       FROM:              Deborah R.
                          Bruce H. Cline

       DATE:              May 12,2000

       SUBJECT:           Response to the Draft Audit Report 00-3 1 Pre-Audit Survey of the
                          Minnesota Commission on National and Community Service


       We have reviewed the draft report on your pre-audit survey of the Minnesota
       Commission. Given the nature of the report, this response serves as our proposed
       management decision. We note that your preliminary assessment recommend a limited
       scope audit at the Commission for Program Years 1995-1996 through 1998-1999. The
       draft audit report includes a recommendation to the Corporation. We are providing the
       following response to that recommendation. The Inspector General recommended:

                 "Additionally, we (the Inspector General) recommend that the Corporation follow
                 up with the Commission to determine that appropriate corrective actions are put
                 into place to address the conditions reported herein, and that the Corporation
                 consider these conditions in its oversight and monitoring of the Commission."

        Some of the conditions cited in the "results in brief' section of the report include
        concerns related to the lack of assessment of applicants' financial systems during the
        selection process and the absence of written policies and procedures to ensure consistent
        communication of renewal applicants' prior evaluations to selection officials during the
        selection process. It was also noted of an absence of written policies and procedures
        related to verifying subgrantees have met matching requirements.
                             -

        Given our limited program administration resources, we developed a plan to assess State
        Commission administration functions. Over a three-year period, we will be reviewing
        each of the state commissions. As part of our follow-up with Minnesota, we will
        determine whether the Board has put appropriate corrective actions in place for
        conditions noted in the pre-audit survey that your office has issued.

        In addition to this scheduled review, we will also request that the Minnesota
        Commission provide semi-annual reports on their actions to correct conditions cited in
        the OIG pre-audit survey.




NATIONAL SERVICE: GEnING THINGS DONE                              1201 New ~orkAvenue, N.W. Washington, D.C. 20525
'~nen'corps Learn and &ne hnetica   ,Vat&   Senior &mice corps    telephone: 202-606-5000 website: www.nationalservice.org
